WAIVE

Supreme Court, U.S.
FILED

MAR 1 2 2021
FFICE OF THE CLERK

SUPREME COURT OF THE UNITED STAT
No.

20-1208
Pacific Community Mortgage, Inc.

Salma Agha-Khan

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Prudential Americana Group (correct name is Americana LLC dba Berkshire Hathaway HomeServices
Nevada Properties); and William Go.

®

Please check the appropriate box:

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Cle .'. Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:
(Type or print) Name Darren J. Welsh, Esq.
0 Mr.

0 Mrs.

Ms.

Firm

Darren J. Welsh, Esq.

Address

6765 S. Eastern Avenue, Suite 2

City & State

Las Vegas, Nevada

Phone

(702) 733-9310

0 Miss

Zip 89119
Email (702) 862-4576

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicato below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover ettREGEIVED

CC:

Ms. Salma Agha-Khan, Petitioner in Proper Person
3751 Motor Avenue, Unit 34727
Los Angeles, CA 90034

MAR 16 2021
OFFICE OF THE JERK

SUPREME COURT, IU.S.

